Nos. 19-251, 19-255
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Catherine M.A. Carroll, a member of the bar of this Court, hereby certify that,
on this 1st day of March, 2021, all parties required to be served have been served copies
of the Brief for Congressman John Sarbanes and Democracy 21 as Amici Curiae in
Support of Neither Party in this matter by overnight courier to the addresses on the
attached service list.

CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale.com

SERVICE LIST
Counsel for Petitioners

Counsel for Respondent

JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 First Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

AIMEE ATHENA FEINBERG
CALIFORNIA DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov

DEREK L. SHAFFER
QUINN EMANUEL URQUHART &
SULLIVAN, LLP
1300 I Street, NW
Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com

2

